Department of Homeland Security
   Ofﬁce of Inspector General

                  United States Coast Guard's 

             Internal Controls and Cost Capturing 

              for the Deepwater Horizon Oil Spill 





OIG-11-115                                     September 2011
                                                            Office (~f Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                        SEP 26 2011

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the United States Coast Guard's
ability to identify and capture costs associated with the Deepwater Horizon oil spill as
authorized by The Oil Pollution Act of 1990 and The National Contingency Plan. It is
based on interviews with employees and officials of the United States Coast Guard, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................4 


     Direct Costs ....................................................................................................................4 


     Indirect Costs .................................................................................................................4 


     Standard Reimbursable Rates for Indirect Costs .........................................................13 


     Auxiliary ......................................................................................................................14 


     Recommendations........................................................................................................16 


     Management Comments and OIG Analysis ................................................................17 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................20 

     Appendix B:           Management Comments to the Draft Report .......................................22 

     Appendix C:           Testing Results.....................................................................................27 

     Appendix D:           Deepwater Horizon Oil Spill Responsible Parties ...............................28 

     Appendix E:           Summary of Billing Activity to Date ...................................................29 

     Appendix F:           Examples of Recoverable Removal Costs ...........................................30 

     Appendix G:           Major Contributors to this Report ........................................................31 

     Appendix H:           Report Distribution ..............................................................................32 


Abbreviations
     AOPS                        Abstract of Operations            

     ALMIS                       Asset Logistics Management Information System

     DHS                         Department of Homeland Security 

     FOSC                        Federal On-Scene Coordinator 

     GAO                         Government Accountability Office 

     NPFC                        National Pollution Funds Center 

     OIG                         Office of Inspector General 

     Oil Pollution Act           The Oil Pollution Act of 1990 

     SONS                        Spill of National Significance 

     UAC                         Unified Area Command

     USCG                        United States Coast Guard 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                        On April 20, 2010, an explosion on the Deepwater Horizon Mobile
                        Off-Shore Drilling Unit caused approximately 207 million gallons
                        of oil to spill into the Gulf of Mexico. The United States Coast
                        Guard initiated and directed the response to this oil spill as the
                        Federal On-Scene Coordinator. The United States Coast Guard is
                        billing the responsible parties for recoverable removal costs
                        associated with this incident.

                        The United States Coast Guard has adequate policies, procedures,
                        and internal controls to accurately identify and bill direct costs for
                        this oil spill. The unprecedented size of this oil spill challenged its
                        existing processes for capturing indirect costs and revealed
                        weaknesses in these processes.

                        Because of these process weaknesses and inaccurate and inadequate
                        supporting documentation, the United States Coast Guard may not
                        be able to bill for as much as $193.7 million in indirect costs.
                        Additionally, the United States Coast Guard cannot bill for as much
                        as $38.7 million because its standard reimbursable rates instruction
                        was not updated prior to the oil spill, as scheduled. The United
                        States Coast Guard has not issued the final bill for this oil spill, and
                        continues to identify and capture costs for billing to the responsible
                        parties.

                        We made three recommendations aimed at improving internal
                        controls, processes, and systems to accurately capture and bill all
                        allowable costs associated with this oil spill and future oil spills.
                        The United States Coast Guard concurred with these
                        recommendations.




  United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                Page 1
Background
                             The Oil Pollution Act of 1990 1 (Oil Pollution Act) established oil
                                                                0F




                             spill liability and compensation requirements to help facilitate
                             cleanup activities and compensate for damages. Under the Oil
                             Pollution Act, those responsible for an oil spill are liable for all
                             removal costs, which include the cost of the incident; lost revenue,
                             profit, or earning capacity; and damages to natural resources, real
                             or personal property, and public services. Executive Order 127771 2             F




                             assigned oversight and management of removal cost claims and
                             payments to the United States Coast Guard (USCG). The USCG’s
                             National Pollution Funds Center (NPFC) was created for this
                             oversight.

                             On April 20, 2010, an explosion on the Deepwater Horizon Mobile
                             Off-Shore Drilling Unit caused approximately 207 million gallons
                             of oil to spill into the Gulf of Mexico. The USCG initiated and
                             directed the response to this oil spill as the Federal On-Scene
                             Coordinator (FOSC). The USCG is billing the responsible parties
                             (listed in appendix D) for recoverable removal costs associated
                             with this incident, and BP is centrally processing all claims.




                             Source: USCG. Fireboat response crews battle the blazing remnants of
                             the offshore oilrig Deepwater Horizon on April 21, 2010.




1
    33 U.S.C. §§ 2701-2761. 

2
    56 Fed. Reg. §54757 (Oct. 22, 1991). 


      United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                    Page 2
           Cost Recovery Process
                             The Oil Spill Liability Trust Fund, funded by the Oil Pollution Act,
                             pays for removal costs and damages resulting from oil spills in the
                             navigable waters, adjoining shorelines, or exclusive economic zones
                             of the United States. The NPFC administers the Oil Spill Liability
                             Trust Fund and replenishes it with the money it recovers from the
                             responsible parties. As of May 10, 2011, the USCG issued 11 bills
                             totaling $711.8 million to the parties responsible for the Deepwater
                             Horizon oil spill (see appendix E, Summary of Billing Activity to
                             Date).

                             The FOSC and designated representatives direct oil spill response
                             efforts and coordinate all other efforts at the scene of a discharge
                             or release. The FOSC is required to track, maintain, review, and
                             verify that costs incurred were for recoverable removal activities
                             and billable to the responsible parties. Examples of recoverable
                             removal costs are listed in appendix F.

                             The NPFC billed the responsible parties using direct and indirect
                             cost categories on the bills. The USCG defines direct costs as
                             those captured using the USCG’s accounting system and charged
                             directly against the Oil Spill Liability Trust Fund. Examples of
                             direct cost categories include—

                                      Contracts,
                                      Charge cards,
                                      Delivery orders,
                                      Purchase orders,
                                      Reimbursable agreements with federal, state, and local
                                      agencies, and
                                      Travel vouchers.

                             The USCG defines indirect costs as those it incurred for USCG
                             assets operating in support of the response. These costs are
                             recovered from the responsible parties to replenish the Oil Spill
                             Liability Trust Fund. Examples of indirect cost categories include
                             the use of—

                                     Aircraft,
                                     Boats,
                                     Cutters, 32F




                                     Equipment and vehicles, and

3
    A cutter is any USCG vessel exceeding 65 feet in length.

      United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                    Page 3
                                 Personnel.

Results of Audit
      The USCG had adequate internal controls, policies, and procedures to accurately
      bill direct costs from the Deepwater Horizon oil spill, but the unprecedented size
      of the spill challenged its existing processes for capturing indirect costs and
      revealed weaknesses in these processes. Because of these process weaknesses
      and inaccurate and inadequate supporting documentation, the USCG may not be
      able to bill for as much as $193.7 million in indirect costs incurred through
      August 31, 2010. Additionally, the USCG cannot bill as much as $38.7 million
      because its standard reimbursable rates instruction was not updated prior to the oil
      spill, as scheduled.

      Direct Costs
               The USCG accurately billed $340.7 million in direct costs to the
               responsible parties using its official accounting system. Direct costs billed
               to the responsible parties included those from purchase orders, delivery
               orders, charge cards, contracts, and travel vouchers. Direct costs also
               included other federal and state agency costs captured on reimbursable
               agreements these agencies had with the USCG.

               The NPFC assigns a unique project number to each oil spill. The USCG
               bills only those costs charged against this project code. We used statistical
               sampling to test costs not charged against the oil spill project code and
               determined that the USCG had adequate policies and procedures to ensure
               that all direct costs associated with the oil spill, with minor exceptions,
               were properly coded and billed. (See appendix C, Testing Results.)

      Indirect Costs
               The USCG did not accurately capture and bill all indirect costs incurred
               for this oil spill response effort. The NPFC guidance in effect for
               Deepwater Horizon was insufficient to capture indirect costs for a spill of
               this magnitude. Indirect costs billed to the responsible parties include
               costs for the use of USCG aircraft, cutters and boats, equipment and
               vehicles, and personnel.

               The CG-5136 daily form is the official record for all indirect cost activity
               for an oil spill. Indirect costs are recorded on this form and submitted to
               the FOSC or delegate for review and submission to the NPFC, which
               compiles these records for inclusion on the bills to the responsible parties.
               The NPFC is tasked with ensuring that all submitted documentation meets
               its guidelines and adjusts the documentation as necessary. The NPFC did

  United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                Page 4
             not keep a record of these adjustments and does not have a supervisory
             review process to ensure accuracy and completeness. Table 1 summarizes
             the indirect cost discrepancies discussed in following sections.

             Table 1. Indirect Cost Discrepancies ($ million)
              Indirect Cost              Total                    Discrepancy
              Aircraft                    $0.8             Not billed
              Cutters                As much as $191.0     Not billed
              Boats                       $1.9             Not billed
              Vehicles                   $0.03             Not supported; billed
              Equipment                   $4.7             Not supported; billed
              Personnel                   $3.0             Not supported; billed




            Source: USCG. The USCG Cutter Aspen, home-ported in San Francisco, California,
            recovers fast sweep boom after oil skimming operations in the Gulf of Mexico less than
            one mile from the shoreline on June 28, 2010.

                      Aircraft

                      The USCG initially did not bill the responsible parties for
                      $10.9 million for aviation costs incurred through August 31, 2010,
                      because of internal control weaknesses in its cost-capturing process.
                      The following issues contributed to the internal control weaknesses:

                               There was no historical record of the documentation used
                               by the NPFC to generate each individual bill, and
                               Bills did not include all aircraft types that flew in support
                               of the oil spill.

                      The Asset Logistics Management Information System (ALMIS) is
                      the USCG’s official system of record for flight time. We compared

United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                              Page 5
                      ALMIS data with the NPFC’s CG-5136 form information submitted
                      by the FOSC and determined that ALMIS contains a more accurate
                      record of missions. However, the FOSC is not required to use these
                      data to fill out CG-5136 forms. The process currently used to bill
                      indirect aviation costs relies on manually entered data on the
                      CG-5136 forms submitted to the NPFC.

                      The forms also contained numerous errors and miscalculations.
                      Table 2 details an example of errors in documentation from the
                      FOSC and NPFC on May 5, 2010. According to the CG-5136
                      record, a C-143 aircraft flew 5.7 hours on this day. However,
                      according to ALMIS data, the aircraft flew only 3.6 hours. NPFC
                      did not have a record of this flight and therefore did not bill the
                      responsible parties for any hours.

                      Table 2. Documentation Errors from FOSC and NPFC from May 5, 2010
                        Aircraft   FOSC CG-5136         NPFC Records       ALMIS
                         C-143       5.7 hours             0 hours         3.6 hours




                      Source: USCG. USCG aircrew members, from a C-130 aircraft stationed at
                      USCG Air Station Clearwater, Florida, prepare to drop a satellite-enabled data
                      marker buoy into the Gulf of Mexico to help track the spill on May 29, 2010.

                      On May 10, 2011, the USCG billed for an additional $10.1 million
                      in aviation costs incurred before August 31, 2010. The NPFC used
                      ALMIS to identify costs that were not accurately recorded on the
                      CG-5136 forms submitted by the FOSC for this reconciliation.
                      Had the NPFC required use of ALMIS information for verification
                      prior to billing the responsible parties, the initial billings could
                      have been more accurate and complete.




United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                              Page 6
                          Cutters and Boats

                          The USCG did not accurately bill the responsible parties for
                          indirect cutter and boat costs. The current cost recovery process is
                          inadequate because it relies on FOSC representatives to fill out
                          forms for reporting recoverable hours without the aid of the
                          USCG’s cutter and boat systems of record for documenting these
                          hours. Based on our analysis—

                                   The USCG did not bill the responsible parties for as much
                                   as $191.0 million in indirect cutter costs.
                                   The USCG did not bill the responsible parties for
                                   $1.9 million of boat costs.

                          Cutter Costs

                          The USCG did not initially bill the responsible parties by as much
                          as $242.1 million for cutter costs through August 31, 2010,
                          because of internal control weaknesses in its cost capturing
                          process. The following issues contributed to the internal control
                          weaknesses:

                                   Unwritten business practices 4 were used to determine if
                                                                      3F




                                   specific categories of cutter hours (e.g., in-port, stand-by,
                                   certain missions, decontamination) are recoverable,
                                   The processes for verifying information submitted on CG­
                                   5136 forms were inadequate, and
                                   No historical record of the documentation was used to
                                   generate each individual bill.

                          The Abstract of Operations (AOPS) database was the official
                          system of record for cutter mission hours during this oil spill. 5 We     4F




                          compared data in AOPS with NPFC’s CG-5136 form information
                          submitted by the FOSC and determined that the AOPS database
                          contains a more accurate record of missions. However, the FOSC
                          is not required to use these data to fill out CG-5136 forms. The
                          NPFC used unwritten business practices to determine recoverable
                          costs, and did not bill for missions recorded in the cutters’
                          navigation logs that it determined were not related to oil spill
                          activities. The following are examples of types of cutter hours not
                          considered recoverable by the NPFC:
4
  The USCG reported that these decisions were based on established yet unwritten practices and guidance 

that have been in place for more than 11,000 previous oil spills. We did not review the practices in place

during previous oil spills; therefore, we are unable to validate this statement. 

5
  The USCG is currently transitioning its system of record for its boats and cutters from AOPS to ALMIS. 

AOPS will remain the official system of record until the transition is complete.


    United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                  Page 7
                                     In-port hours
                                     Standby hours
                                     Decontamination hours
                                     Transit hours out of the operations area

                            According to the USCG, direct decontamination costs were billed
                            to the responsible parties, but the in-port hours spent by the cutters
                            and boats in decontamination were not. By excluding these
                            categories of cutter hours, the USCG may not have billed the
                            responsible parties for all of its indirect costs.

                            For example, according to the USCG, the cutter Dolphin, which is
                            home-ported in Miami Beach, Florida, was assigned to the oil spill
                            response. Its duties involved patrolling closed fishing zones and
                            serving as a radio relay for civilian vessels employed to skim oil.
                            The NPFC, based on the Dolphin’s logs, 6 determined that none of
                                                                             5F




                            the 659.5 hours accrued while it was assigned to the oil spill were
                            recoverable, despite the cutter’s employment for oil spill response.
                            These logs did not specifically mention Deepwater Horizon
                            missions, but these missions were coded in AOPS for the oil spill.
                            Additionally, the Commanding Officer of the cutter said that these
                            missions were in support of oil spill response during this period.
                            This resulted in $1.7 million not being billed to the responsible
                            parties for the Dolphin’s oil spill-related missions.

                            As a second example, the Oil Pollution Act mandated that USCG
                            buoy tenders be outfitted with an onboard spill recovery system.
                            Buoy tenders skimmed oil in this spill, but the NPFC did not
                            consider their in-port time recoverable despite the need to return to
                            port to offload skimmed oil. The NPFC did not bill the responsible
                            parties for $94.6 million for in-port hours, decontamination, and
                            transit hours from the oil spill for these cutters.




                            Source: USCG. Left – A USCG crewmember monitors a hose transporting an
                            oil-and-water mix from the Spilled Oil Recovery System to a 4,200-gallon tank
                            onboard the USCG Cutter Juniper on June 11, 2010.


6
    Cutter logs (CG-4380A forms) record the cutter’s movements and actions during each 24-hour period.

      United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                    Page 8
                      Right – Crewmembers aboard the USCG Cutter Juniper deploy the Spilled Oil
                      Recovery System pump from the buoy deck into the boom area where oil is
                      collected and contained on June 11, 2010.

                      Another example involved the cutter Venturous serving as an 

                      offshore response coordinator for vessels and aircraft during the oil 

                      spill response. Table 3 compares the cutter’s recorded hours, 

                      including—


                                 Hours recorded by the FOSC on the cutter’s CG-5136 

                                 forms,

                                 Hours credited to oil spill operations by the NPFC, 

                                 Hours recorded in AOPS with the oil spill code, and 

                                 Hours recorded in AOPS using NPFC’s exclusion of types 

                                 of activities as discussed above. 


                   Table 3. Cutter Venturous Hours from FOSC, NPFC, and AOPS
                                   Hours on      Hours from       Hours in AOPS        Hours in AOPS
                                     the           NPFC           with Operations       Using NPFC
                                    FOSC        Assessment of          Code              Unwritten
                       Cutter      CG-5136     Navigation Logs     “DWHorizn”         Business Practices
                     Venturous       922               706              875                  725

                      USCG personnel said that when in port, the Venturous maintained
                      its duties as the offshore coordinator of the response as well as
                      radio guard duties for USCG assets on the surface or in the air.
                      The NPFC did not consider in-port hours recoverable, resulting in
                      215.7 hours being excluded from the bill at a cost of $1.3 million.




                      Source: USCG. An oily sheen on the surface of the water distorts the
                      reflection cast by the hull of the USCG Cutter Resolute on July 9, 2010. The
                      Resolute, home-ported in St. Petersburg, Florida, served as a search and rescue


United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                              Page 9
                          guard to help support and protect people and ships involved in the Deepwater
                          Horizon response efforts.

                          On March 10, 2011, the USCG billed an additional $51 million in
                          cutter costs incurred through August 31, 2010. According to the
                          USCG, this bill was reconciled using cutter logs and AOPS. We
                          did not audit the supporting documentation the USCG used to
                          complete this reconciliation.

                          Table 4 summarizes the cutter mission hours billed to the
                          responsible parties using the NPFC’s unwritten business practices.
                          It also shows Deepwater Horizon-related mission hours as
                          recorded in AOPS (including the hours that the NPFC excludes)
                          and the amount not billed to the responsible parties for these hours.
                          Table 4 includes all costs incurred through August 31, 2010. 7           6F




                          Table 4. Cutter Mission Hours Billed Through August 31, 2010
                                                                                             Amount Not
                            Cutter                  Hours      Amount Billed                  Billed to
                            Length     Hourly      Billed by   to Responsible    Hours in    Responsible
                            in Feet     Rate      the NPFC         Parties        AOPS        Parties *
                              87       $2,577       5,671         $14,612,879     25,381      $50,794,448
                              110      $3,452        42              $143,258     1,196        $3,985,334
                              140      $7,257        703           $5,099,857     2,783       $15,098,769
                              160      $4,243        465           $1,970,874      404          -$256,617
                              175      $6,475       2,004         $12,972,663     5,181       $20,573,536
                              210      $5,808       2,364         $13,727,208     3,166        $4,660,688
                              225      $8,820       7,239         $63,850,185     17,970      $94,641,687
                              270     $10,305     280         $2,880,248     428        $1,531,838
                                                   Total    $115,257,172             $191,029,683
                            *Amount Not Billed = (Hours in AOPS – Hours in NPFC) x Hourly Rate

                          Boat Costs

                          The USCG did not bill the responsible parties for $1.9 million in
                          recoverable boat costs. The unbilled amount was for boat hours
                          that were not captured on any CG-5136 forms submitted by the
                          FOSC but were captured in ALMIS. ALMIS was the official
                          system of record for boat mission hours with the exception of boats
                          assigned to the Deployable Operations Group (which were
                          recorded in AOPS). The USCG accurately billed the responsible
                          parties for $3.8 million for the Deployable Operations Group’s
                          boats through August 31, 2010.


7
 On March 10, 2010, the USCG billed an additional $51 million in cutter costs incurred between April 20
and August 31, 2010. We adjusted table 4 to reflect the additional amount billed.

    United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                  Page 10
                      Equipment and Vehicles

                      The USCG does not have adequate records to substantiate
                      $4.7 million of equipment and vehicle costs billed to the
                      responsible parties through August 31, 2010. The USCG does not
                      have adequate internal control procedures in place to ensure that
                      documentation is accurate and complete. Internal control
                      weaknesses resulted in—

                               Inconsistencies between the multiple sources of
                               information that feed into the bill,
                               Multiple versions of submitted CG-5136 forms with
                               different cost information,
                               Calculation errors not identified and corrected in CG-5136
                               forms, and
                               No record of the documentation used to generate each
                               individual bill.

                      The NPFC cannot validate the accuracy of the CG-5136 forms. It
                      does not require supporting documentation, such as a CG-213
                      Resource Request form, to be submitted with these forms. There is
                      no official system of record for capturing this information. Table 5
                      summarizes differences between vehicle and equipment costs on
                      CG-5136 forms from the FOSC, NPFC records, and the bills.

                      Table 5. Vehicle and Equipment Cost Discrepancies
                                         Total Costs from          Total Costs
                                         FOSC CG-5136              from NPFC          Amount Billed to
                                             Records                 Records         Responsible Parties
                         Equipment                $5,121,372           $5,875,623              $4,688,952
                           Vehicles                     $33,268           $39,119                 $34,131
                             Totals               $5,154,640           $5,914,742              $4,723,083


                      Additionally, hazardous waste cleanup equipment used in this spill
                      was not billed to the responsible parties because there were no
                      published hourly rates prior to the spill. Because there was no
                      hourly rate, the USCG did not track the use of this oil spill
                      equipment and therefore will not be able to quantify these costs.
                      The USCG is working to establish hourly rates for this equipment
                      so its use can be tracked and the cost recovered in future oil spills.

                      Personnel

                      The USCG does not have adequate records to substantiate
                      $3.0 million of the $94.2 million in personnel costs billed to the

United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                              Page 11
                          responsible parties through August 31, 2010. The USCG does not
                          have internal control procedures in place to ensure that all
                          documentation is accurate and complete. For example, based on
                          the results of our statistical sample, $33.9 million (36%) of the
                          $94.2 million in personnel costs may be incorrectly calculated.
                          The USCG has also not yet billed the responsible parties for USCG
                          civilian overtime costs (approximately $330,000). Civilian
                          personnel costs were billed using the standard hourly rate, which
                          does not include overtime costs. The USCG is in the process of
                          billing these costs. The following paragraphs discuss three
                          examples of deficiencies that led to inadequate capturing of
                          personnel costs.

                          First, the USCG tracks personnel costs for oil spills on a standard
                          form but decided to rely on a pass card system owned by BP to
                          track personnel hours for USCG personnel at the Unified
                          Command and Incident Command Posts due to the volume of
                          personnel involved in this spill. The USCG did not audit this
                          system for accuracy and relied on BP to provide personnel hour
                          data from this system for billing to the responsible parties. For
                          example, a USCG Time Unit Leader in New Orleans noticed that
                          the entire USCG Finance Section was missing from a BP daily
                          report of USCG personnel. This error might not have been noticed
                          if the missing information had been from another response section.
                          Had the USCG conducted regular audits of the pass card system’s
                          data, it might have been able to determine whether the system was
                          accurate and complete.

                          Second, the USCG did not accurately record personnel costs on the
                          CG-5136 forms for billing purposes. The USCG selected the
                          wrong pay grade 129 times (36% of our sample), resulting in
                          inaccurate personnel costs being recorded. The USCG does not
                          use the Employee Identification Number of each USCG employee
                          to record the information on the CG-5136 forms. Use of the
                          Employee Identification Number would allow the USCG to
                          distinguish between USCG personnel with the same first and last
                          name deployed to oil spills.

                          Finally, the USCG did not have a complete list of all USCG
                          military and civilian personnel who mobilized as individuals to the
                          oil spill. The USCG developed the Mobilization Readiness
                          Tracking Tool from lessons learned in Hurricane Katrina. 8            7F




                          According to the USCG, this tool was used to request and deploy

8
 Observations on the Preparation, Response, and Recovery Missions Related to Hurricane Katrina,
Government Accountability Office (GAO) 06-903 (July 2006), p. 42

    United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                  Page 12
                           approximately 80% of personnel for the oil spill response.
                           However, the USCG was not required to use this tool prior to April
                           2011. In April 2011, the USCG issued policy that designates the
                           Mobilization Readiness Tracking Tool as its “Human Resource
                           Information System for requesting, sourcing, and tracking
                           personnel in support of contingency and surge operations.” It is
                           now required to use this tool “upon the start of a contingency”.
                           Use of the system in future oil spills will allow the USCG to track
                           and account for personnel costs more accurately.

         Standard Reimbursable Rates for Indirect Costs
                  The USCG’s Standard Reimbursable Rate Instruction contains standard
                  hourly rates for computing reimbursable costs for USCG equipment,
                  assets, and personnel. This instruction includes the indirect hourly rates
                  used to bill the responsible parties.

                  The USCG’s instruction, in place at the time of the oil spill, had not been
                  updated as scheduled. The instruction should have been published in early
                  2010 but was not published until February 28, 2011. According to the
                  USCG, this instruction is updated every 2 years, or sooner 9 if necessary.
                                                                                         8F




                  The instruction was not updated in 2010 because the USCG implemented
                  advanced activity-based costing software and realigned its contract
                  support for the standard reimbursable rate process. The USCG said that it
                  would continue to modify selected standard rates based on the results of
                  this audit.

                  The rates in the instruction are valid only from the date of publication until
                  a new instruction is published. Therefore, the USCG cannot retroactively
                  bill the responsible parties using the current rates. Table 6 compares the
                  2008 and current rates for indirect costs through August 31, 2010, reflecting
                  our estimates based on the best available information during this audit. 10            9F




9
 Office of Management and Budget Circular Number A-25 (Revised), July 8, 1993. 

10
  The USCG updated its current standard reimbursable rates on May 17, 2011; these totals reflect the 

updates. 


     United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                   Page 13
                 Table 6. Comparison of Standard Reimbursable Rates ($ millions)

                    Indirect Cost      Totals Using 2008 Rates      Totals Using Current Rates Difference
                   Aircraft                            $45.861                         $51.52         $5.66
                   Cutters                As much as $306.292              As much as $330.94        $24.65
                   Boats                                $5.803                           $6.24        $0.44
                   Vehicles                             $0.034                           $0.04        $0.01
                   Equipment                            $4.694                           $4.91        $0.22
                   Personnel                           $91.845                         $99.58         $7.74
                                                         Total                            As much as $38.72
                   1. ALMIS data for Deepwater Horizon coded flights, excluding search and rescue missions, for
                   April 21, 22, and 23.
                   2. AOPS data for Deepwater Horizon related missions, including missions that NPFC excluded
                   from bills 1–10.
                   3. ALMIS data for Deepwater Horizon coded missions and NPFC summary spreadsheet for boats.
                   4. Bill 8 was issued on November 18, 2010. We used updated cost information on this bill for
                   April 20 through August 31, 2010.
                   5. NPFC CG-5136 data.


                  The USCG has adequate controls in place to ensure that its standard
                  reimbursable rates include all relevant cost components for military and
                  civilian personnel, aircraft, cutters, and boats. For example, the military
                  personnel rate includes base pay and allowances, retirement, and health
                  care benefits.

                  For vehicle reimbursements, the USCG uses standard vehicle rates
                  established by the General Services Administration. The USCG provided
                  a link to the General Services Administration’s 2008 vehicle rates in its
                  Standard Reimbursable Rate Instruction for 2008. This link expired in
                  2010, and the USCG did not include guidance to use the current year’s
                  rates. As a result, the USCG did not bill the responsible parties using
                  2010 rates. We notified the USCG about the expired link, and an active
                  link is now included in its current instruction, as well as guidance to use
                  the relevant year’s General Services Administration vehicle rates.

         Auxiliary
                  The USCG provides oversight and funding to the USCG Auxiliary, a
                  volunteer organization of more than 30,000 personnel who assist the USCG
                  in carrying out its missions. The USCG billed direct Auxiliary costs for
                  travel expenditures and air and surface patrols to the responsible parties.
                  However, because the USCG Auxiliary is a volunteer organization, the
                  USCG did not incur any costs for auxiliary personnel efforts. We estimated
                  that Auxiliary personnel efforts during this oil spill were valued at
                  $370,000 11 through August 31, 2010.
                              10F




11
  According to the USCG, an Auxiliary member’s hourly rate is valued at $19.92 (equivalent to GS-09,
Step 1).

     United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                    Page 14
             During the Deepwater Horizon oil spill, Auxiliary members performed
             duties at many locations, including—

                      Incident command posts and emergency operations centers,
                      Vessel decontamination sites,
                      Equipment and personnel staging areas,

                      Safety zone enforcement, 

                      Vessel inspections for civilian skimming vessels, and 

                      Public affairs liaisons. 





                               Source: USCG Auxiliary. A USCG
                               Auxiliary member conducts a vessel safety
                               check for a boat on standby for opportunity
                               work during the oil spill.

             Travel costs for USCG Auxiliary members were billed to the responsible
             parties because the NPFC considers auxiliaries’ orders a recoverable
             removal cost. Auxiliary air and surface patrols costs initially were not
             billed to the responsible parties because they could not be coded as
             Deepwater Horizon in the patrol system of record. According to the
             USCG, this issue was resolved in August 2010, and the patrol costs are
             now being billed to the responsible parties.

    Conclusion
             The USCG accurately billed the responsible parties for all direct costs
             related to this oil spill but did not accurately bill the responsible parties for
             all indirect costs related to this oil spill. The USCG does not have
             adequate policies, procedures, and internal controls to ensure that—

                      Indirect costs are verified using USCG official systems of record
                      (AOPS, ALMIS, Mobilization Readiness Tracking Tool), and
                      Documents are submitted with correct hourly rates, correct types of
                      assets (e.g., aircraft, boats, cutters), and correct employee names.
United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                              Page 15
             The USCG’s delay in issuance of its Standard Reimbursable Rates
             instruction prevented it from billing the responsible parties for as much as
             $38.7 million in indirect costs. The USCG did not bill the responsible
             parties for as much as $193.7 million because of weak internal controls,
             policies, and procedures. Table 7 summarizes these costs.

                      Table 7. Unbilled Indirect Costs Summary
                                 Costs Not Billed to Responsible Parties ($ millions)
                        Aircraft                                                       $0.8
                        Boats                                                          $1.9
                                  Costs Excluded by NPFC Policies and Processes
                        Cutters                                           As much as $191.0
                        Costs Not Billed Because of Delay in Standard Reimbursable Rates
                        Standard Rates Difference                          As much as $38.7
                                                    Total                As much as $232.4

             Based on information we shared during the course of the audit, the USCG
             immediately started taking corrective action on issues identified in this
             report. The USCG is reconciling its records with AOPS and ALMIS
             information. As a result, these additional amounts have been billed for
             costs incurred through August 31, 2010, and are included in the costs
             discussed throughout this report:

                      Aircraft – $10.1 million 

                      Cutters – $51.0 million 


             According to the USCG, it could take up to a decade to issue the final bill
             to the responsible parties. The USCG will continue to identify and capture
             costs as well as issue bills to the responsible parties for all recoverable
             costs.

             Recommendations
                      We recommend that the Assistant Commandant for Resources and
                      Chief Financial Officer of the United States Coast Guard:

                      Recommendation #1: Direct the NPFC to reconcile the bills sent
                      to the responsible parties with the amounts identified in this report
                      as potentially incorrect or not billed, and revise the bills as
                      appropriate.

                      Recommendation #2: Revise existing policies, procedures, and
                      internal controls to require the FOSC to verify collected indirect
                      cost information using the USCG’s official systems of record for
                      aircraft, boat, and cutter hours and to require the NPFC to verify
                      submitted FOSC information using these systems during a spill

United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                              Page 16
                      classified as a Spill of National Significance (SONS) or when a
                      Unified Area Command (UAC) is established.

                      Recommendation #3: Implement an appropriate system to collect
                      data for indirect costs, including—

                               Internal controls that ensure that data are entered and
                               summed correctly at the FOSC level,
                               Segregation of duties between preparation and approval of
                               manual entries or adjustments to indirect cost data,
                               Verification of all manual entries or adjustments for
                               validity and accuracy,
                               A record of changes that documents and justifies any
                               adjustments to information after it is recorded and
                               submitted to the NPFC,
                               Submission of CG-213 Resource Request forms for
                               equipment and vehicles during a spill classified as a SONS
                               or when a UAC is established, and
                               A field for the Employee Identification Number for USCG
                               personnel.

             Management Comments and OIG Analysis

                      Management Comments to Recommendation #1

                      Concur. The period under review ended on August 31, 2010, but
                      the FOSC response is ongoing. The NPFC will continue to review,
                      update, reconcile, and bill to the responsible parties federal oil
                      removal costs resulting from the Deepwater Horizon incident using
                      additional financial information provided by the responding and
                      supporting agencies.

                      OIG Analysis

                      We consider the USCG’s proposed corrective actions to be
                      responsive to the recommendation. However, the recommendation
                      will remain open and unresolved until the USCG provides
                      evidence that it has reconciled its bills to the responsible parties
                      with appropriate supporting documentation.

                      Management’s Comments to Recommendation #2

                      Concur. The USCG concurs with this recommendation for spills
                      that involve a significant amount of indirect costs, defined as a
                      SONS or a spill in which a UAC is established.

United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                              Page 17
                      The NPFC relies on the FOSC’s certification of costs and
                      resources used based on the CG-5136 collection system (as
                      directed by the NPFC User Resource Guide), which the auditors
                      noted is a USCG system of record. During the vast majority of
                      spills, only a small number of USCG assets generating indirect
                      costs are used. These responses are efficiently and effectively
                      documented using existing procedures, including the CG-5136. In
                      cases where a UAC is required and established, additional
                      resources are usually mobilized to augment the FOSC’s local
                      response capacity. Incidents that are designated as a SONS or that
                      require a UAC frequently have subordinate Incident Command
                      Posts and are inherently more complex organizationally. We agree
                      that indirect costs generated under an incident that requires a UAC
                      should be reconciled against other USCG systems of record, such
                      as the ALMIS and AOPS, when those systems can provide discrete
                      spill-specific data. USCG policies and procedures will be updated
                      to reflect this requirement.

                      OIG Analysis

                      We consider the USCG’s proposed corrective actions to be
                      responsive to the recommendation. However, the recommendation
                      will remain open and unresolved until the USCG provides us with
                      final revised policies and procedures that adequately address our
                      recommendation.

                      Management’s Comments to Recommendation #3

                      Concur. FOSC certification of indirect costs is critical to resource
                      tracking and supports cost recovery where responsible parties can
                      be identified. The USCG concurs with the recommendations to
                      implement an appropriate system to collect data for indirect costs
                      that includes the following:

                               Internal controls that ensure that data are entered and
                               summed correctly at the FOSC level,
                               Segregation of duties between preparation and approval of
                               manual entries or adjustments to indirect cost data,
                               Verification of all manual entries or adjustments for
                               validity and accuracy,
                               A record of changes that documents and justifies any
                               adjustments to information after it is recorded and
                               submitted to the NPFC,
                               Submission of CG-213 Resource Request forms for
                               equipment and vehicles, and


United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                              Page 18
                               A field for the Employee Identification Number for USCG
                               personnel.

                      NPFC will amend internal controls for all adjustments to manual
                      entry transactions. This will include a requirement for improved
                      documentation of any adjustments and notations in the file during
                      the reconciliation process. NPFC has added the Employee
                      Identification Number data field to all CG-5136 spreadsheets.

                      For spills that involve a significant amount of additional assets
                      being brought in to assist the FOSC, as defined as any SONS or a
                      spill during which a UAC is established, the USCG agreed with the
                      OIG recommendation to formally use the ICS-213RR CG
                      Resource Request Form. USCG policies and procedures will be
                      updated to reflect this requirement.

                      OIG Analysis

                      We consider the USCG’s proposed corrective actions to be
                      responsive to the recommendation. However, the recommendation
                      will remain open and unresolved until the USCG provides the
                      following:

                               A revised CG-5136 form that includes a field for the
                               Employee Identification Number for USCG personnel.

                               Revised policies and procedures indicating that for a spill
                               defined as a SONS or when a UAC is established, the
                               FOSC must submit the ICS-213RR CG Resource Request
                               Form for equipment and vehicle costs to the NPFC with the
                               CG-5136 form.

                               Revised policies and procedures that include—
                                  Internal controls that ensure that data are entered and
                                  summed correctly at the FOSC level,
                                  Segregation of duties between preparation and approval
                                  of manual entries or adjustments to indirect cost data,
                                  Verification of all manual entries or adjustments for
                                  validity and accuracy, and
                                  A record of changes that documents and justifies any
                                  adjustments to information after it is recorded and
                                  submitted to the NPFC.




United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                              Page 19
Appendix A
Purpose, Scope, and Methodology

                         This report provides the results of our work to determine whether
                         the USCG has adequate policies, procedures, and internal controls to
                         accurately capture all direct and indirect costs associated with the
                         Deepwater Horizon oil spill from April 20 through August 31, 2010.

                         We tested the USCG’s direct and indirect cost-capturing processes
                         for accuracy and completeness for costs incurred through
                         August 31, 2010. Bills 1 through 7 generally covered the audit’s
                         scope; however, the NPFC has begun to reconcile the bills with
                         supporting documentation. We used this information, included in
                         bills 8–11, to update totals billed to the responsible parties.
                         Accuracy was determined by analyzing the documents and data
                         that the USCG used to bill the responsible parties. The bills were
                         accurate if the totals in the documents and data were equal to the
                         amounts in the bills to the responsible parties through September 7,
                         2010 (date of bill that included August 31, 2010). Completeness
                         was determined by statistically sampling the relevant population of
                         all non-Deepwater Horizon coded transactions (for example,
                         USCG contracts issued is one population) during the scope of the
                         audit. The bills were considered complete if miscoded transactions
                         were not identified and were not considered material if they were
                         less than 1% of the sample.

                         We conducted statistical sampling using a 95% confidence interval
                         and a 5% sampling error. Samples were drawn for each population
                         using IDEA software, except for travel vouchers. Because of the
                         limitations of the travel voucher system, the USCG extracted
                         random samples based on information we provided. Appendix C
                         contains the testing results for accuracy and completeness for
                         direct and indirect costs for the Deepwater Horizon oil spill
                         through August 31, 2010.

                         We conducted the following site visits:

                                  Aviation Logistics Command – Elizabeth City, North
                                  Carolina
                                  National Pollution Funds Center – Washington, DC
                                  Shore Infrastructure Logistics Center – Norfolk, Virginia
                                  Unified Command for the Deepwater Horizon oil spill –
                                  New Orleans, Louisiana
                                  USCG Financial Center – Chesapeake, Virginia
                                  USCG Headquarters – Washington, DC
                                  USCG Personnel and Pay Center – Topeka, Kansas
                                  USCG Telecommunication and Information Systems –
                                  Alexandria, Virginia

   United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                 Page 20
Appendix A
Purpose, Scope, and Methodology



                         We assessed compliance with federal and USCG policies,
                         procedures, and internal controls for capturing costs for recovery
                         from an oil spill’s responsible party, including—

                                  The Clean Water Act, 

                                  The National Contingency Plan, 

                                  The Oil Pollution Act of 1990, 

                                  Standard Reimbursable Rate Instruction, and 

                                  NPFC User Reference Guide. 


                         We conducted this performance audit between July 2010 and May
                         2011 pursuant to the Inspector General Act of 1978, as amended,
                         and according to generally accepted government auditing
                         standards. Those standards require that we plan and perform the
                         audit to obtain sufficient, appropriate evidence to provide a
                         reasonable basis for our findings and conclusions based upon our
                         audit objectives. We believe that the evidence obtained provides a
                         reasonable basis for our findings and conclusions based upon our
                         audit objectives.

                         We would like to thank the USCG for the cooperation and
                         courtesies extended to our staff during this review.




   United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                 Page 21
Appendix B
Management Comments to the Draft Report




  United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                Page 22
Appendix B
Management Comments to the Draft Report




                                         WolTED STATES COAST GUARD
                 STATDfEXr 0:"1" DEPARTML,\'T or H01II.1A"D SECURIn ' ornCE or
                                   V,SPECTOR GL'T.RA.L REPORT

           WolTED STATf.S COAST GUARD'S [\O'TERI~AL CO:''TROLS A.'\l) COST
           CAPTURL'\'G fOR TIlE DEEPWATER HOR1W:S OIL SPILL (1II-I S2-AUD-USCG)

           L''TRODUcnO:S
           Thaok you fur Ibe oppoIIIIIIityto "'~ md...,.,...- <III Doponmrnt ofHomdmd s.cmiIy
           (DHS) Offi« ofinsp<ctm Gmon)' , (lOG', ) Ilnft Rq>cn lll-m_AUD-USCG 0D!itI0d, "United
           S,., .. Coast Guard', Internal CootrnIs.IId Cos! CIOpIIIrinf; fur Ibe o..pw_ Horimn Oil Spill"

           'l"bt United Sa,.,. Cont Guard (USCG).~ Ibe .!T0rtI oflbe OIG to docummt <mImI
           polici<s, prnc:.wre. mol m..m.l COII!roIs to ocanteIy idmtify md bill dir<ct com f<ll this oil
           spill 'l"bt OIG "'~       '"'w  t 7lM wonh ofUSCGpurclw<s. COII!Ial"b, tm,.] ordon, r =..
           _       mol _      dir<ct npooditur<s from Ibe Fuod mol ,",w t323M in im<ng<ll<}"~
                    di_
           ...ith 126           portn<r "Y"";'" mmywith .......1ao.:.,., ...-..... In both >reulbe
           OIG f<llllld that Ibe USCG 1m ooi<quat< policioo. procedure<, mil m..m.J 00Dtrn1s to O<CIDt<ly
           idontily.IId bill costs fur this."...,

           'l"bt ~t<d m. oflbe spilL~ , did <halImg< uistin,o; JI1<I«SS<" [(If c~
           iodira1 =-
           ill its _
                            'l"bt o..pw.,.,- Horimn Oil Spill """in< ~ in Ibe mm.y oflJlill Inpom<
                        magn.:.....;., tbo lI<iy. oftbo spill th<n W<R moJ< , .....1.< iIIvoh'M thm " .... usod
           ill tbo D-Doy lmo:Iinp" Nonmndy. Simihrly, withiD . fol\- ,,-..n tbo Unifi<d Command had
           scolod to on orgoniw.., C<IDlJ>UIbi< in m. to MX:mooI\ USA. Hntorically, tbo USCG 1m
           iD<urr<d lou thon S2M p<r j _ in USCG iodira1 com fm .U spills which """,U lOO p<ryn>
           ill 1IWIlbtr. AI of3[ MJy 2011 !be oo!l'inl: o..pw_ Horimn iDc:idtm.torr bad iDnmtd
           iodira1 costs oU3UM, Il7 limos that hislori<.nnual " ....~

           'l"bt of6cial USCG HCtI<d fur.u iodira1 ro<I octn;.y io tbo CG_ll36 doily fOJDl "'" tbo NPFC
           UO<[ ~ Guici< (URG) 'l"bt URG io . _ _ to tbo Mum. SaC;,ty M..w, Volumo
           IX, d=ribiJql;""" to obtain. """"" documml. mol J<CO\'<I pollitioo '""""'"" Iimds. 'l"bt ooJy
           """"" who CUI op<IId OSLTF luDik fur ,...0....1 octn;ti<s is tbo Fodonl On X - Comdinatm
           (fOSC) mol tbo OO_l136 it, _ _ thinp, tbo rose', =tificatioo. oftbo IIDOUII! o f _
           • porticuW-lIIIit or iDdivilbol wu dovokd spKif>cally to ,.....",al.cti,-itieo. Odoor USCG
           oysI ..... of=oro. mdt u Ibe As .. t ~1Itico MIIl&-' lnfOJm>tioo. Sys-. (ALMIS) md
           Abstn<1 ofOpontiom (AOps).,. US<d to ob...-t USCG mUllioa rni,;.y. 'l"bt JlIDl!"m mol
           misrioD boun a..;~ to be coptmM by AOPS mol ALWS do _ -mJy~ to
           ="'.... a- bl<      W.,.,- A<1 r<mO'."[ "",ts. It is iIq>ortmt to ~y. tbat Ibe OO_lU6.".. .
           _ _ lin< thm AIMIS md AOPS. AlldIS mol AOPS.,. _IOIIINS of
                                                                 ,'Ih<b1.
           infOJDlltioo. tbat obould be usod ,,'boci 1JIIIIDIIIist< to      mol J<CODcilo tbo infonnation
           CODtaiD<d in OO_l136o, .IId CUrI<IIl policy ~ that rose, iDcble official ""oro. mol ~
           fur USCG =<lIlfCft ill Ibe rose', fi",,,,cial sumnwy.-.port. GmonIIy, Ibe stmdml fur
           <ha~ iodira1 costs io drn.... by ho... _ _ was 'I-' "" actual r<mO'."[ octn;.;...
           eun.m writt<n policy in tbo URG <1000 _      """w.          disc_ dofinitioIII of. """".,.[ boor;
           mbor, iI _ out mWtipI< <D~ of how tbo Fuod m.:y. II< usod by .. rose fur ruDO\-.J




  United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                     Page 23
Appendix B
Management Comments to the Draft Report




          octn;brs.  This "    imm<I<d to "",,;do!"icb""" witbo", lmitin,I; tbt scope oftbt FOSC' ,
          wtbority in ~. =pom<. Tho Cont Gum! wi:! "';.,:, thio ~ ODd tbt I=om
          J.., ,,.,j fimn tbt o.q,w.,., Horiz.on IDcidom and "'. ... II<C=>ry ~ to tbt ~
          u._toFOSCs.

          Bas<d 00 ntablisbrd y" uowritten p:nctice and~" tbt Coast Gum! comioi!n """,..,.bIe
          boon .. _       boon op<nt 0D--SCme ...~ged in """"..:] opomi""" \\Di1< tbt         o.q,w.,.,
          lloriDoo hwoMkm .<Dr! iuvi.. """ '" 'i"".tiooo thio polKy. rt boo 1><=.tb< .... blUh<d p<<<ti<< roc
          0\..,- 11 .000 pw.""" oil spills; tbrr.ror. tbt t-1'FC did m1 bill roc ID-J""1 ~ swdby boun.
          in_pon boon op<DI in ~ and tnmit boon Th<R ... rNS<ID< for thio policy and
          hntorical ~ F ~ tb< .mdard bourly .... fOJ •              = .....         is.r.~ by dividio,o; tbt
          full IIIDlIl cost of that ..... by tho pIam><d op<I>tioml l"'Ul'" boon of that ..... (lIDdonny
          boon). ~!be cOS! ofiD-port _              trainiII~ and ,'ftSdrnointeo."""     yu-d p<riooh (indudio,o;
          swdby OJ -'mioatioD) is fOe tmm """ tbo _                     ro .. p<f IIBIIonvay hom porlmnlDj!
          """"..:] op<Htions. With Jnp<ct to traoYt _           USCG ,.....h and.innfI im.,,1wd in.
          """""" lin.. bisrorically """'" from tbt 51"'" ~ locale .. tbo spill               Those.....,....,.
          " .... IW'cally _!be rommmd and <OD!roI. oftbt FOSC orw..-e ...... opemiD,o; in. tho
          ~~ arN that could reodi/y shift to ,,'<lIl fo<!be FOSC. This ,,!be finI mojO< oil spill
          """""" Wrio,o; w!Deh USCG , .....1> ODd aircafllrami!<d SIlCh km,o; distan<n. Indudio,o;"""
          km,o; tnosiu .. """"..:] com JIO'<S umq... ~ that IIOI5I be <..-.fully COIIJIidoIM-.
          maI:~ ~ policy ~ Cut!<.-. in.lramit rnnain ..... ibble to 0X<Qtte otbor
          ~ SIlCh .. s..ru. and It....... (SAR) and Maritime Law Eof"""""", (MLE), while m
          route ODd fury em accomplillh somo ninin,o; and routir>omaint"""",, duriII~ tbt traoYt that
          would lin.. O!bem;", beeci <1000 at UlOIbor tir:oo. 0... oftbo cutten that InMited fimn <Ms""
          to tbo Gulflasl ...",.,... ""as _ mWiOll capable 00 uriwl em. to. rudder CHIIIlty .. The><
          <D~ hi~yn some oftbt c ~ In .......1lIining what boon _                              o f _ boon 00_
          """"" 0CIp~ in """"..:] op«atiOllS may be .ppropriat~ biII<d to. InJI<IIWble pony. Tho
          a..<rminItiOll ofwh<tbeJ an ..... bom <qUIt.. to. ,"""""I bom is. fOe"",1 a..<rminItioa that
          r<qIIires IDIIysis .Dd di=<ti.oo

          Tho USCG C<U"lIn with tbo iot... oftbo OIG' , ="""""""'ticm to impRr... !be accuncy and
          ~ of!be documon!atioo for indirHt costs. Artiom ha,.., beeci tak ... or ... t"IIIT<IIIIy
          in prn<= to addr=!bose ~ In ....~ octiom to addr-<u ......
          =~ticm . tbo USCG must """" furw.,d a.Jib<Dtely ODd _ o i l y to......,., that
          OIIJ' policy.Dd process ~ InIIitio,o; fimn!be chalIe:!gn pr...med by thio uop"udmted
          ..._ ... babmcod by what ..... wmbd for 1l.000+ 0IbeJ spills. Tho USCG """...... tho
          fuIlowiJql; 00DlIIl<D!> in =pom< 10 !be fmdin~ of tho ,.".,.,.

          REC01BIL..,n.U1 0!lo~        A>..,l > USCG RESPO:;"SES




                                                       Pog<!ofS




  United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                      Page 24
Appendix B
Management Comments to the Draft Report




                 .... poriod undor audit <Dd<d OIl A~" 31, 2010, .... FOSC =!""'" is oo~_ NPFC
          "iD C<Uinoo to =i<w, ~             ""..rue.   mol bill to .... RnpoIWb\e l'anift, F«I<nl oil
          mno",] costJI InIIltio,o; from .... o.q,w. ... Horiz.on iocidoot, mio,o; .dditiooal rm.rial
          infOJIWltiOll f'W'idod by .... r<>p""din,o; .od ~ .-=iro_




          USCG R<>po ...: n.. USCG C<U"Un "ith!his ~                              ro. spills which im.,J"e
          sip>i6com _       ofiDdirect costs, d<fiD<d H. Spill ofN.n.oo.J          S~..,.        (SONS) 01 • spill
          in which. Uaifiod AIM Commmd (UAC) is _ blisb<d

          n.. NPFC ",]iro "" the FOSC',     cenificoti.oo:> of """ mol JftOIIINS usod bu<d OIl the CG _ ~Il6
          collKti"" IIJ"IeII1 (H direct«! by .... NPf'C URG), which the .uditon _       is. USCG syst=
          of""ord. DmiIqI; the , _ majority of spills - on... just . - <r      "'-0
                                                                                c..td ~ ~
          ,..ro.lly dispatcb<d OIl OC_, quickly ......m~ the situatioo mol 1<'<JI"'di"~ "I'I'"'!'ria'" - <lilly •

          mol ._..:ty
          small,."w",,- of USCG ...... ~tio,o:

          ,,-b<re.
                                                        u.wr..:t """
                                                                 OJ<.....t,       no...
                                                                                  Inpom<> OJ< .r6cim!ly
                          docummted mio,o;.mtio,o; ~ iD<ludio,o; .... CG_ ~136_ In'- curs
                    UAC is .."bJjobod, .dditiooal .-..ourceo are ~ ~ in to - ' .... FOSC',
          capacity.  lDc:i_   r<qlDriD~. UAC ~ 1>0'...._ _ lI>cidont Commmd Posts .M
          OJ< inh=ntly """" «>DIple>; OIpIIizationally_ W"Y"" that iDdirect costs ~t«! _ _ In
          iD<i.d<nl ~ _blishmon! of a UAC II< rK<ID<il<d a~ otheJ USCG 'J""'IWI ofHCOCd
          ouch .. the ALMIS mol AOPS ,,-bocIthose 'J""'IWI CHI         prm_
                                                                          dix_IjliD-<p<cifi< data
          Cont Gum! polici .. ODd pr<>«du= will II< updated to ",flKt this ~

          RKG .. _..tatio.o: 1mpImng ... >p!lIOIlriJ!< tyJIem to            roIIe<1 ""II fOJ ine! com that

          """"


          USCG ~..: n.. USCG 000l"III"I "ith the .b<r... ~ with                                <...,.,......    FOSC
          cenificoti.oo:> of iDdirect costs is aitical to "'""""" tIKl:iD,o; ODd rIIJIIIOIIlI cost rec<r."'Y wJ..re
          R"'I"""ible J'>nirs CK! II< id<mifi«l NPFC will amecwI iotemal cootrnh fOJ .U adjllSlmmlslo
          J:IlDIIIOl ..my tnIISacti"",,_ This will iDch>:I< • ~ fur imp-cwd documrntatioo of my
          odjustmomo.M IlOt>ti.om in the file durin~ the .-.ooD<iliatiao. p-oc ....



                                                         Pag<30fS




  United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                        Page 25
Appendix B
Management Comments to the Draft Report




           USCG R<>po ...: Tho: USCG C<U"Un with !hi< ~ fOJ spills which ;",;oh." .
           sip>iCtcam """"'" of oilditi.ocW ...... bHI,o; ~ iD to ...... !he FOSC, " d<:m..d .. any
           SO:.s or IJlill <IDrinf: which. UAC .. ....bIiWd ~!he , .... mljority of~ ooJy.
           smoIl ,."w",,- of.,.... lIe mod, oft ... ju " ono: or two 6dd =p<>B<Ion b<io,o; ,'ftbaDY di>potcb<d
           "" scm<, quiclIy......m,.;!he sitwotioto and ~ apprnpriat<:ly.               Throo:...,.,.,..... or•
           • flici<ntly .M .tr..::,;.... ly documrnt<d usinf; e:mlinf; p:om:Iw ... iDcIIIdinf; !he 00_11 J 6. In
           those c .... wbrr<. UAC .. _bIioh<d. aclditioml =<lOfCn.." ~ ill to ~ !he
           FOSCo copocity_ _ ~. UAC ~ ba\.. A>bordinate Jncia.nl Commmd
           Posts.M are inb<r<n!ly mon: C<lCIlJd<:>: orpDizati.oD>II.     w• •u«      tlII1 uso: of!he ICS-lllRR




           --
           00 Resource ~ forms <bio,o;. SONS 01 ... iDcid<ot I«[Uiriojo; ntablishmrDt of. UAC
           should be fOJ1lll!ly   .dopI:....   Col<! Guard potioiH md ~ lIill be upcbt<d ttl .-.110<1 this


               •   \ fi d d fur !be F rppIgyrr !dcmjfigt jllll   T1mbn fOJ !!SCG pm   FllIIlC!

           USCG    ~.. :          Tho: USCGCOD<\IDw:idtthi . ~OIL /O;PFC baoOililod ....
           F.mpIoy..: l<I<otificatioto N!lDlb<o- dltlli6I to all 00_5116 1JIffiI--




                                                          Pll" 4 0f S


OIG Note: Page 5 of this document contained technical comments that were incorporated
into the report, as appropriate.




   United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                           Page 26
       Appendix C
       Testing Results

       Random statistical samples were drawn using IDEA software, a 95% Confidence
       Interval, and a 5% sampling error.

                                        Accuracy and Completeness – Direct Costs

   Transaction Type                          Population                       Sample                    Results


  Purchase Orders and          68 (Deepwater Horizon coded)                    68       Bills 1–7 are accurate based on testing
    Delivery Orders            4,516 (non-Deepwater Horizon)                   354      Bills 1–7 are complete based on testing

     Purchase Cards            1,735 (Deepwater Horizon coded)                1,735     Bills 1–7 are accurate based on testing
                               276,869 (non-Deepwater Horizon)                 384      Bills 1–7 are complete based on testing
                                                                                        3 purchases (0.8%) may be
                                                                                        recoverable
        Contracts              24 (Deepwater Horizon coded)                    24       Bills 1–7 are accurate based on testing
                               2,989 (non-Deepwater Horizon)                   340      Bills 1–7 are complete based on testing
   Pollution Removal           38 (Deepwater Horizon coded)                     38      Bills 1–7 are accurate based on testing
   Funding Requests            0 (non-Deepwater Horizon)                         0      Bills 1–7 are complete based on testing

Military Interdepartmental     64 (Deepwater Horizon coded)                    64       Bills 1–7 are accurate based on testing
   Purchase Requests           1,117 (non-Deepwater Horizon)                   286      Bills 1–7 are complete based on testing
    Travel Vouchers            17,879 (Deepwater Horizon coded)               17,879    Bills 1–7 are accurate based on testing
                               16,017 (non-Deepwater Horizon)                  375      Bills 1–7 are complete based on testing
                                                                                        1 travel voucher (0.3%) may be
                                                                                        recoverable

                                       Accuracy and Completeness – Indirect Costs

Transaction                       Population                      Sample                            Results
   Type

  Aircraft       1,060 Missions (Deepwater Horizon coded)             1,060      Bills 1–7 are not accurate based on testing
                 22,764 Missions (non-Deepwater Horizon)               378       Bills 1–7 are not complete based on testing
  Cutters        506 Missions (Deepwater Horizon coded)               506        Bills 1–7 are not accurate based on testing
                 8,975 Missions (non-Deepwater Horizon)               368        Bills 1–7 are not complete based on testing
   Boats         304 Missions (Deepwater Horizon coded)               304        Bills 1–7 are not accurate based on testing
                 51,414 Missions (non-Deepwater Horizon)              381        Bills 1–7 are not complete based on testing
Equipment        All CG-5136 forms received from the USCG for                    Bills 1–7 are not accurate based on testing
                 Deepwater Horizon                                               Bills 1–7 are not complete based on testing

 Vehicles        All CG-5136 forms received from the USCG for                    Bills 1–7 are not accurate based on testing
                 Deepwater Horizon                                               Bills 1–7 may not be complete based on testing

 Personnel       6,368 deployments (Deepwater Horizon                 362        Bills 1–7 are not accurate based on testing
                 coded)                                                          Bills 1–7 may not be complete based on testing




             United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill


                                                           Page 27

Appendix D
Deepwater Horizon Oil Spill Responsible Parties

BP Exploration and Production, Incorporated
New Orleans, Louisiana

BP Corporation North America, Incorporated
Houston, Texas

Anadarko E and P Company, Limited Partnership
Houston, Texas

Anadarko Petroleum Corporation
Houston, Texas

MOEX Offshore 2007, Limited Liability Corporation
Houston, Texas

Transocean Holdings, Incorporated
Houston, Texas

QBE Underwriting, Limited
Lloyds Syndicate 1036
New York, New York




   United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                 Page 28
    Appendix E
    Summary of Billing Activity to Date

                                    Direct Costs Billed to Responsible Parties
                 Date of                                                                         MIPRs and
        Bills                     Purchases            Contracts              Travel
                  Bill                                                                            PRFAs12
          1      27-May                  $0.00                $0.00                $0.00                  $0.00
          2       2-Jun                  $0.00                $0.00                $0.00         $69,090,958.57
          3      21-Jun                  $0.00                $0.00                $0.00         $34,236,836.27
          4       13-Jul          $732,163.83          $149,180.72         $3,405,394.74         $40,780,907.55
          5      10-Aug          $1,773,084.27        $3,146,398.10        $8,043,375.00         $75,829,183.80
          6       7-Sep           $379,464.85         $3,853,432.69       $10,152,038.65         $77,696,901.12
          7      12-Oct           $124,401.00         $3,121,446.81        $9,087,813.34         $25,701,240.83
          8      18-Nov           $253,425.63         $5,444,741.22        $5,208,842.12                  $0.00
          9       11-Jan          $571,433.96         $9,965,415.83        $4,911,783.73                  $0.00
         10      10-Mar           $237,563.39          $442,483.23         $2,138,617.92                  $0.00
         11      10-May           $357,310.75          $514,924.66         $1,359,736.54                  $0.00
              Subtotals     $4,428,847.68 $26,638,023.26                  $44,307,602.04   $323,336,028.14
                   TOTAL DIRECT COSTS (Bills #1–11):                              $398,710,501.12



                                  Indirect Costs Billed to Responsible Parties
       Date of                  Cutters and
Bills             Aviation                                        Equipment          Vehicles          Personnel
          Bill                     Boats
 1     27-May    $692,232.36            $0.00                             $0.00          $0.00     $1,128,493.00
 2       2-Jun          $0.00           $0.00                             $0.00          $0.00             $0.00
 3      21-Jun  $4,758,015.00   $3,520,020.00                      $195,698.00           $0.00     $8,724,979.00
 4      13-Jul $13,014,387.20  $19,960,534.00                     $1,339,498.00          $0.00    $20,279,293.30
 5     10-Aug $13,708,121.30   $34,836,255.70                     $1,768,077.00      $2,667.33    $28,789,331.77
 6      7-Sep   $1,879,430.40   $8,936,155.42                     $1,385,679.00     $31,463.73    $24,135,761.74
 7     12-Oct      $63,057.50    $878,348.40                       $493,591.00      $23,032.21    $23,129,115.62
 8     18-Nov           $0.00           $0.00                       -$98,647.00     $28,603.40    $14,539,873.13
 9      11-Jan   $982,518.40            $0.00                             $0.00     $43,484.92     $9,774,378.85
 10    10-Mar           $0.00  $52,604,496.00                             $0.00     $44,249.10     $6,536,647.00
 11    10-May $10,264,332.40            $0.00                             $0.00     $36,459.35     $4,617,700.91
   Subtotals   $45,362,094.56 $120,735,809.52                     $5,083,896.00    $209,960.04 $141,655,574.32
        TOTAL INDIRECT COSTS (Bills #1–11):                                              $313,047,334.44


         Total Costs Billed to the Responsible Parties through May 10, 2011:
                                    $711,757,835.56


    12
     A MIPR is a Military Interdepartmental Purchase Request. A PRFA is a Pollution Removal Funding
    Authorization.

          United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                        Page 29
Appendix F
Examples of Recoverable Removal Costs

   Auxiliarist orders
   Consumables or services specifically purchased during the response, such as sorbent supplies, incident-
   specific vehicle and equipment lease or rentals
   Contract clerical services
   Contract documentation services
   Contract for capturing, cleaning, and emergency care for oiled animals, such as costs to capture, clean,
   temporarily care for, and release birds oiled by spill, or dispose of dead animals
   Contract for cleanup labor
   Contract for diving when necessary to control the source or spread of oil, salvage operations
   Contract for disposal
   Contract for temporary feeding for evacuees
   Contract for temporary lodging for evacuees
   Contractor costs such as contract cleanup expertise
   Costs of transporting and staging of required supplies and equipment
   Decontamination of oiled equipment
   Government equipment inventory use at standard cost, such as boom, skimmers, transfer systems,
   pumping systems, dracones, vapor analyzers, gas indicators, and protective gear
   Government or contract laboratory sample analysis, such as Coast Guard Marine Safety Lab services,
   at standard costs
   Government or leased communications systems, such as paging systems, cellular phones, and facsimile
   equipment, normally charged at standard rates plus any identifiable direct costs
   Government or leased facility use, such as office space at standard cost or mobile command post lease
   Government personnel assigned, such as scientific support, FOSC personnel, strike personnel, or legal
   support for administrative orders, at standard costs
   Government systems use, such as telecommunications systems or computer systems
   Government vehicles, boats, aircraft use at standard costs
   In special circumstances, contract for temporary docking of salvaged vessel
   Local and temporary duty travel, transportation, and any per diem
   Long distance telephone charges
   Overnight or express delivery services
   Purchase of equipment, such as boom, skimmers, transfer systems, pumping systems, dracones, vapor
   analyzers, gas indicators, and protective gear
   Purchase of nonexpendable equipment (generally those items, of value greater than $1,000, with useful
   life greater than 1 year)
   Purchase of water as alternative drinking water
   Rental or purchase of fencing, barricades, and security material
   Repair of damages caused by cleanup activities, such as damage to lawns by vehicles
   Replacement of excavated soils
   Replacement of oiled equipment and property that cannot be cleaned cost-effectively
   Replacement, repair, renovation, or cleaning of equipment to the extent that the damage is due to the
   specific response and not the result of improper maintenance, improper use of the equipment, or the
   actions of others unrelated to the removal
   Reservist orders 

   Traffic control 

   Warehousing or storage services, such as costs to store records and samples




   United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                 Page 30
Appendix G
Major Contributors to this Report

                         Brooke Bebow, Coast Guard Division Director
                         Lorinda Couch, Audit Manager
                         Holly Snow, Auditor-in-Charge
                         Priscilla Cast, Program Analyst
                         Ebenezer Jackson, Program Analyst
                         Tessa May-Fraser, Program Analyst
                         Amy Nase, Program Analyst
                         Vicky Phan, Program Analyst
                         Eliece Pizarro, Auditor
                         Nachama Rosen, Program Analyst
                         Roger Thoet, Auditor
                         Kendra Loper, Independent Referencer




   United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                 Page 31
Appendix H
Report Distribution

                         Department of Homeland Security

                         Secretary
                         Deputy Secretary
                         Chief of Staff
                         Deputy Chief of Staff
                         General Counsel
                         Executive Secretariat
                         Director, GAO/OIG Liaison Office
                         Assistant Secretary for Office of Policy
                         Assistant Secretary for Office of Public Affairs
                         Assistant Secretary for Office of Legislative Affairs

                         Office of Management and Budget

                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress

                         Congressional Oversight and Appropriations Committees, as
                         appropriate

                         United States Coast Guard

                         Audit Liaison




   United States Coast Guard’s Internal Controls and Cost Capturing for the Deepwater Horizon Oil Spill

                                                 Page 32
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
